Before the Committee on Appropriations
Subcommittee on Transportation, Treasury and
Independent Agencies
U. S. House of Representatives

For Release on Delivery
Expected at
2:00 p.m. EDT
                          Cost Control Issues for
                          the Federal Aviation
Wednesday
April 9, 2003
CC-2003-098

                          Administration’s
                          Operations and
                          Modernization
                          Accounts
                          Statement of
                          The Honorable Kenneth M. Mead
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee,


We appreciate the opportunity to testify today as the Subcommittee begins
deliberations on the fiscal year (FY) 2004 appropriation for the Federal Aviation
Administration (FAA). It is important to recognize that FAA oversees the largest
and safest air transportation system in the world, but FAA urgently needs to do
considerably more to bring its costs under control. This will be the focus of our
testimony this afternoon.


In 1996, FAA was given two powerful tools–personnel reform and acquisition
reform. FAA was also directed to establish a cost accounting system so that it
would know, at the facility level, where it was spending money and for what. The
expectation was that by relieving the agency from Government rules and
establishing a cost accounting system, FAA would operate more like a business—
that is, services would be provided to users cost effectively and air traffic control
modernization programs would be delivered approximately on time and within
budget.


Seven years later, we do not see sufficient progress toward achieving those
outcomes. The growth in FAA’s budget—from about $8.2 billion in FY 1996 to
$14 billion in FY 2004 represents an increase of $5.8 billion, or nearly 70 percent.
About 33 percent of this increase was a result of higher authorized airport funding,
and about 15 percent was a result of authorized increases in FAA’s modernization
budget, but the majority of this increase (52 percent) was attributable to FAA’s
operating budget. During this period, we have seen large increases in workforce
costs, as well as cost overruns and schedule slips in major acquisitions.


Personnel reform was a key element in the move to make FAA performance-
based.    While there has been improved labor/management relations with


                                          1
controllers (FAA’s largest workforce), to date the reality has been increasing
workforce costs and higher salaries. Cost growth of the magnitude FAA has
experienced over the past 4 to 5 years is no longer sustainable given the financial
state of the airline industry, and multibillion-dollar declines in projected Aviation
Trust Fund receipts.


As a result of the slow economy and the decline in air travel, there has been a
significant decrease in tax revenues coming into the Aviation Trust Fund.
Projected tax receipts to the Aviation Trust Fund for FY 2004 have dropped from
approximately $12.6 billion estimated in April 2001 to about $10.2 billion
estimated in January 2003.     Over the next 4 years, Aviation Trust Fund tax
revenues are expected to be about $10 billion less than projections made in April
2001.


The sharp decline in Trust Fund revenues will have significant implications for
FAA’s operating budget in terms of the amount of funds that will be needed from
the General Fund. AIR-21 gives priority to FAA’s airport and modernization
accounts by requiring that revenue from the Trust Fund be allocated to those
accounts before allocating any revenue to FAA’s operating budget. The lower
Trust Fund revenues mean that, if Congress adopts similar requirements in FAA’s
pending Reauthorization, there will be much less Trust Fund revenue to fund
FAA’s operations than in prior years.


We do not believe the answer to cost growth at FAA lies in increasing taxes, fees,
or other charges, which are already substantial. Just as the airlines have had to
rethink the basics of their business, FAA also must re-examine how it does
business and redouble its efforts to become performance based in deed as well as
in word. Cost control must become an imperative for FAA, which has not been
the case for some time.


                                         2
The Department’s Reauthorization proposal for FAA also underscores the need for
cost control within the agency. In the proposal, the Department is requesting
$31 billion over the next 4 years for FAA operations, which is an average increase
of 3 percent each year. In comparison, over the past 4 years, FAA’s operating
costs have increased, on average, about 6 percent each year.


In terms of actual dollars, the Department’s proposal represents an average
increase of about $158 million each year for FY 2005 through FY 2007. To put
that amount in perspective, FAA’s FY 2004 budget request estimates that pay
raises alone in FY 2004 will be in excess of $190 million.



             FAA's Operations Budget - FY 1996 to FY 2007 (proposed)
                                  $ in Billions

   $9
   $8                                                               $7.7   $7.9   $8.1
                                                             $7.6
   $7                                          $6.9   $7.1
                                        $6.6
   $6                            $6.0
                     $5.3 $5.6
              $5.0
   $5 $4.6
   $4
         FY   FY   FY   FY   FY   FY   FY   FY   FY   FY   FY   FY
        1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007



Operating within the Department’s proposed funding levels will be a formidable
challenge for FAA, especially considering the pending wave of controller
retirements. In May 2001, FAA estimated that almost 7,200 controllers could be
eligible to leave the agency by the end of FY 2010, with the largest spike in
eligible retirements occurring around 2007.




                                           3
In general, the training process to become a certified professional controller can
take up to 5 years. Hiring and training a significant number of new controllers
within the Department’s proposed funding levels will require stringent financial
management on FAA’s part. An important issue will be determining the number
of controllers that will actually retire when they become eligible, and when and
where new controllers will be needed. For FY 2004, FAA has proposed adding
300 new controller positions in anticipation of expected retirements (this is in
addition to hiring to backfill for current attrition).


A key issue for FAA will be to accomplish this task without “crowding out” other
critical functions.     For example, FAA will need operating funds to train
maintenance technicians on new software to remain abreast of emerging
technologies and new systems. FAA will also need operating funds to hire and
train safety inspectors to oversee a rapidly changing airline industry. To meet
current financial challenges, airlines are reducing and standardizing aircraft fleets
and closing or relocating maintenance facilities. FAA will need to ensure it has
ample inspectors, with the right skills, in the right locations, to monitor these
changes and ensure that safety is maintained.


Controlling Operating Costs.         Although Congress envisioned that personnel
reform would result in more cost-effective operations, to date this has not
happened.     Since 1996, FAA’s operating costs have increased substantially.
FAA’s operations budget has increased from $4.6 billion in FY 1996 to
$7.6 billion in FY 2004, an increase of 65 percent. Payroll accounts for the largest
portion of FAA’s operating costs. As shown in the chart below, for FY 2004,
approximately $5.6 billion, or 74 percent, of FAA’s operating costs are made up of
payroll costs; the remainder is primarily for expenses such as rent,
communications, and utilities.



                                            4
                             Contracts & Support
              Supplies
              Utilities

               Rent
                    Travel



                                                           Payroll and Benefits




From 1998, when FAA began implementing new pay systems, salaries within the
agency have increased 41 percent whereas the overall increase for the Federal
workforce in Washington, D.C. was about 30 percent. However, the increases
within FAA vary by workforce (from around 28 percent to around 47 percent).


There is no question that many controllers have tough jobs and are responsible for
the safe movement of aircraft and passengers. The controller pay system, agreed
to in 1998, recognized this in the form of increased compensation, among other
factors. But the financial reality of 2003−5 years later−is that continued salary
cost growth on the scale of that experienced over the last several years is simply
not sustainable given the multibillion dollar declines in revenue both to the Trust
Fund and the General Fund.


The average base salary for fully certified controllers is now over $106,000, which
is exclusive of premium pay and overtime. That figure represents a 47 percent
increase over the 1998 average annual base salary of $72,000, and compares to an
average salary increase of about 32 percent for all other FAA employees during
the same period.



                                                   5
In total, FAA estimated that through 2003 the controller pay system will cost the
agency about $1 billion in additional payroll costs. Although portions of those
costs were to be offset by productivity gains (such as having controllers assume
collateral duties in staff areas such as training or quality assurance, when not
controlling traffic), neither FAA nor we have been able to substantiate those gains.
In February 2003, FAA reported that only 13 percent of air traffic controllers
available to perform collateral duties actually performed them.                                According to
FAA, constraints to controllers performing additional duties may be related to
staffing needs and training requirements.


Additionally, FAA, in conjunction with the controllers’ union, was to issue a
report each year after implementation of the 1998 collective bargaining agreement.
The objective of the report was to identify savings related to the agreement. In the
fall of 2000, FAA issued its first report, but was unable to quantify savings
associated with increased productivity with the exception of supervisory attrition
as a result of expanding the Controller-In-Charge Program.1 Subsequent reports
were never issued.


Under requirements of FAA’s 1996 Reauthorization, the agency must negotiate
compensation with each of its unions.                          Following the agreement with the
controllers’ union, other FAA workforces organized into collective bargaining
units as well. Today, FAA has 48 collective bargaining units as compared to 19
collective bargaining units in 1996.                     According to a September 2002 study
conducted by Deloitte and Touche,2 a major obstacle for FAA management has
been the complexity of dealing with so many bargaining units, and the ability of

1
  FAA planned to expand the number of Controller-In-Charge positions and have them assume additional supervisory
   duties, in order to reduce the number of first line supervisors.
2
  “Five-Year Review of Personnel Reform and Strategies for the Future,” prepared by Deloitte Touche, September 5,
   2002.


                                                        6
the unions under the legislation to negotiate compensation and other elements of
reform that would not normally be negotiable in the Federal service.


As of March 2003, FAA remains in negotiations with seven unions. According to
FAA, negotiations are complete for all issues except compensation. As a result,
FAA has multiple compensation systems, with about 23 percent of its workforce
still under the Federal General Schedule.


Although linking pay and performance is a key tenet of personnel reform, as a
result of the way the various pay systems were negotiated and established, only
about 36 percent of all FAA employees receive pay increases based on
performance. For example,


• The agreement between the Professional Airways Systems Specialists’ union
   (PASS) and Airways Facilities includes pay for individual performance that
   links part of an employee’s pay increase to meeting certain performance goals,
   which was a result of the collective bargaining process. These goals include
   performing additional duties beyond their normal workload, providing
   customer service to both internal and external parties, and seeking innovative
   ways to improve the agency. Employees who meet these goals are provided an
   additional pay increase at the beginning of each calendar year.


Other agreements contain provisions for largely automatic pay increases, similar
to the increases under the Federal General Schedule. For example,


• This year under terms of the National Air Traffic Controllers Association’s
   (NATCA) collective bargaining agreement, all controllers received an
   automatic pay increase of 4.9 percent, regardless of their individual



                                            7
   performance.    FAA provided a similar increase to all Air Traffic field
   managers and supervisors.


In our work, we also found there are between 1,000 and 1,500 side bar agreements
or Memorandums of Understanding (MOUs) that are outside the national
collective bargaining agreement with controllers.     Many serve very legitimate
purposes, such as providing incentives to controllers for reducing operational
errors. But some can add millions to personnel costs. For example,


• One MOU we reviewed allows controllers transferring to larger consolidated
   facilities to begin earning the higher salaries associated with their new
   positions substantially in advance of their transfer or taking on new duties. At
   one location, controllers received their full salary increases 1 year in advance
   of their transfer (in some cases going from an annual salary of around $54,000
   to over $99,000).    During that time, they remained in their old location,
   controlling the same air space, and performing the same duties.


We found that controls over MOUs are inadequate. FAA management does not
know the exact number or nature of these agreements, there are no established
procedures for approving MOUs, and their cost impact on the budget has not been
analyzed. It is important for FAA to get a handle on this process because many
MOUs involve issues pertaining to deploying new equipment. For example,


• One MOU for a new free flight tool controller software system (URET) gave
   each controller a $500 cash award and a 24-hour time-off award for meeting
   certain training milestones on the new system.         At 6 facilities alone, this
   resulted in FAA incurring approximately $1.3 million in individual cash
   awards and 62,500 hours in time off. FAA and NATCA are now negotiating
   for further implementation at the next 14 locations.


                                         8
• At Philadelphia, there was a verbal agreement that gave each employee
   $1,000 in cash and 3 days off in connection with deployment of the new
   Standard Terminal Automation Replacement System (STARS).               Currently,
   STARS is scheduled to be deployed to more than 170 terminal facilities, and it
   is unclear if FAA will enter into similar agreements at other locations.


We briefed Administrator Blakey on our concerns regarding MOUs; FAA is now
in the process of identifying those MOUs that are problematic or costly and has
begun correspondence with NATCA to reopen several agreements. FAA is also
drafting new procedures for MOUs, which includes limiting approval authority
and requiring that both the Human Resources and Budget divisions review
proposed MOUs before they are signed by management. These are clearly steps in
the right direction.


Improving Management of Major Acquisitions. FAA has made progress with
some acquisitions, such as Free Flight Phase 1. Progress with Free Flight Phase 1
builds on the deployment of the Display System Replacement, which provided
new controllers displays and related equipment at facilities that control high
altitude traffic. However, cost overruns and schedule slips are all too common
with major acquisitions.


We see three areas that need attention: controlling cost growth and schedule slips,
effectively managing and controlling costs with modernization projects that are
just getting started, and putting in place the basic elements of contract oversight.
FAA is now beginning to take steps at the direction of the Administrator and
Deputy Administrator to strengthen contract oversight. In addition, FAA needs to,
like any business, develop metrics to assess progress with its major acquisitions.



                                         9
Five major acquisitions out of 20 that we track have experienced substantial cost
growth totaling more than $3 billion (from $2.8 billion to $5.9 billion), which is
equivalent to an entire year’s budget for FAA’s modernization account. Also,
these same five acquisitions have experienced schedule slips of 3 to 5 years.


Problems with cost growth, schedule slips, and performance shortfalls have
serious consequences—they result in costly interim systems, a reduction in units
procured, postponed benefits (in terms of safety and efficiency), or “crowding out”
other projects. For example, in FY 2002 alone, FAA reprogrammed over $40
million from other modernization efforts (data link communications, oceanic
modernization, and instrument landing systems) to pay for cost increases
associated with STARS. As a result, FAA is not getting as much as it can for its
acquisition dollar.


FAA can no longer afford multibillion dollar cost growth with its major
acquisitions. It should be recognized that only 60 percent of FAA’s FY 2004
request for Facilities and Equipment is expected to be spent specifically on new air
traffic control systems, whereas the remaining funds are requested for FAA
facilities, mission support (i.e., support contracts), and personnel expenses.


Cost control is critical because there are billion dollar projects just getting started
that have potential for cost growth.          For example, the En Route Automation
Modernization program, with an estimated cost of $1.9 billion, is critical because
it will replace aging Host computer hardware and software (the central nervous
system) for facilities that manage high altitude air traffic. Given FAA’s track
record with large scale acquisitions, this is a high-risk effort because of its size,
complexity, and the fact that it involves over 1 million lines of software code. We
will start a review of this effort shortly.



                                              10
Our work has also found that FAA has not followed sound business practices for
administering contracts. We have consistently found a lack of basic contract
administration at every stage of contract management from contract award to
contract closeout. For example, we found that Government cost estimates were
prepared by FAA engineers, then ignored; prepared using unreliable resource and
cost data; prepared by the contractor (a direct conflict of interest); or not prepared
at all.


In our May 2002 report on the oversight of cost-reimbursable contracts, we found
cost-reimbursable contracts totaling about $2 billion that did not have required
incurred cost audits. To protect the Government’s interests, FAA not only needs
to hold managers accountable and adhere to the basic principles of contract
oversight and administration, but the agency needs to make more effective use of
the Defense Contract Audit Agency. FAA has stated that it will take actions to
address these concerns–the key now is follow through.


Tools for Controlling Costs. To effectively control costs, FAA needs accurate
cost accounting and labor distribution systems. At the direction of Congress, FAA
began developing its cost accounting system in 1996, which was estimated at that
time to cost about $12 million and be completed in October 1998. Now, after
nearly 7 years of development and over $38 million, FAA still does not have an
adequate cost accounting system, and it expects to spend at least another $7
million to deploy the cost accounting system throughout FAA.


Although FAA’s cost accounting system is producing cost data for two of its lines
of business, which, according to FAA, represents 80 percent of the agency’s costs,
it still does not report actual costs for each facility location. For example, for the
Terminal Service in FY 2001, about $1.3 billion of $2.4 billion was reported in
lump-sum totals and not by individual facility locations. FAA cannot credibly


                                         11
claim to be a performance-based organization, nor can it function as one, until it
has a cost accounting system.


FAA also needs an accurate labor distribution system to track the costs and
productivity of its workforces. For example, there has been much discussion as to
what extent overtime costs have been driven by staffing levels, but those questions
cannot be credibly answered until FAA has an accurate labor distribution system.


Cru-X is the labor distribution system FAA chose to track hours worked by air
traffic employees. As designed, Cru-X could have provided credible workforce
data for addressing controller concerns about staffing shortages, related overtime
expenditures, and determining how many controllers are needed and where. That
information in turn is especially important, given projections of pending controller
retirements. Unfortunately, Cru-X has not been implemented as designed. We
hope it will be in the coming year.




                                        12
Controlling Operating Costs

Although Congress envisioned that personnel reform would result in more cost-
effective operations, to date this has not happened. Since 1996, FAA’s operating
costs have increased substantially−from $4.6 billion in FY 1996 to $7.6 billion in
FY 2004, an increase of 65 percent. Operating costs represent the largest portion
(54 percent) of FAA’s total budget. Approximately, $5.6 billion or 74 percent of
FAA’s $7.6 billion FY 2004 operations request is for payroll costs. As shown in
the following table, Air Traffic represents about half of FAA’s operating costs.

                            FAA OPERATING COSTS
                                     ($ in millions)

                                                       2004       %
           Air Traffic                                   $3,794   49.9%
           Airway Facilities                             $2,302   30.3%
           Regulation and Certification                  $873.4   11.5%
           Commercial Space                               $12.6    0.2%
           Research and Acquisitions                     $218.5    2.9%
           Regions and Centers                            $84.7    1.1%
           Human Resources Management                     $82.0    1.1%
           Financial Services                             $49.8    0.7%
           Information Services                           $29.7    0.4%
           Staff Offices                                 $143.2    1.9%
           Total                                       $7,589.9    100%


Although FAA’s total operating costs have increased by 65 percent between
FY 1996 and FY 2004, Air Traffic’s Operations Budget has experienced a 74
percent increase for the same period.

Increased Salaries. Much of the increase in operations costs has been a result of
salary increases from collective bargaining agreements negotiated under FAA’s
personnel reform authority. The 1998 collective bargaining agreement with
NATCA, which created a new pay system for controllers, was a significant cost
driver. Under the agreement, most controllers’ salaries increased substantially.
For example,

• The average base salary for fully certified controllers has now risen to over
  $106,000–a 47 percent increase over the 1998 average of about $72,000.
  Controllers at the smallest facilities now have an average base salary of
  $65,000, while controllers at the busiest facilities now have an average base
  salary of $121,000. Controllers’ maximum base salary is capped legislatively
  at $154,700.




                                          13
• In comparison, during the same period, the average salary for all other FAA
  employees during the same period increased about 32 percent, and the average
  salary for all Government employees in the Washington, D.C. area increased
  about 30 percent.

When premium pays (such as overtime and Sunday pay) are added, total salaries
can be substantially higher. For example,

• In 2002, over 1,000 controllers had gross salaries in excess of $150,000,
  (approximately 7 percent of the controller workforce). That number compares
  to only 65 controllers that earned over $150,000 in 2000 (approximately
  0.4 percent of the controller workforce).

There has been much discussion as to what extent overtime costs have been driven
by staffing levels. Those questions cannot be credibly answered until FAA has an
accurate cost accounting system. However, it is important to note that while
overtime is a factor for higher salary figures at some locations, as shown in the
following table, of the $219 million earned in premium pay last year, only
24 percent was attributable to overtime. The balance was for other types of
premium pay, such as, holiday, Sunday, and night differentials.

                FY 2002 Bargaining Unit Controller Premium Pay

                 Premium Pay              $ Amount (in       % of Total
                                             millions)
         Overtime                            $53.0             24.2%
         Holiday Differential                $45.0             20.5%
         Sunday Differential                 $40.0             18.2%
         Night Differential                  $34.7             15.8%
         Controller Incentive Pay            $26.7             12.2%
         Controller-in-Charge Pay             $9.2              4.2%
         Alaska/Hawaii Pay                    $7.7             3.5 %
         On-the-Job Training Pay              $2.4              1.1%
         Missed Meal Pay                       $.3              0.1%
         Other                                 $.2              0.1%
         TOTAL                              $219.4             100%

In 2002, over 60 percent of fully certified controllers had an average gross salary
(base salary plus premium pay) of $130,000. Only 4 percent of that amount was
attributable to overtime.

There is no question that many controllers have tough jobs and are responsible for
the safe movement of aircraft and passengers. The controller pay system, agreed
to in 1998, recognized this in the form of increased compensation, among other

                                        14
factors. But the financial reality of 2003−5 years later−is that continued salary
cost growth on the scale of that experienced over the last several years is simply
not sustainable given the multibillion dollar declines in revenue both to the Trust
Fund and the General Fund.

In total, FAA estimates that the agreement with NATCA will have cost the agency
about $1 billion over its 5-year life. There have been claims that a significant
portion of those costs were absorbed by productivity gains (such as having
controllers assume collateral duties in staff areas, such as, training or quality
assurance, when not controlling traffic). However, FAA has been unable to
produce credible data that substantiate those claims other than attrition of
supervisors as a result of expanding the Controller-In-Charge Program.3 This lack
of data underscores the need for a labor distribution system that could document
changes in workforce productivity.

Additionally, FAA, in conjunction with NATCA, was to issue a report each year
after implementation of the 1998 collective bargaining agreement. The objective
of the report was to identify savings related to the agreement. In the fall of 2000,
FAA issued its first report utilizing data from 1999, but was unable to quantify
savings associated with productivity gains. Subsequent reports were never issued.

The report also listed about $240 million as offsetting savings that were actually
“cost avoidances” associated with a staffing ceiling of 15,000 controllers. That is,
future expenses of hiring more controllers were avoided because of the agreement.
However, those “avoidances" were not actual savings that would offset the
$1 billion cost of the new pay system.

Pay for Performance. Following the agreement with NATCA, other FAA
workforces began organizing into collective bargaining units as well. Today, FAA
has 48 collective bargaining units as compared to 19 collective bargaining units in
1996. Under requirements of FAA’s 1996 Reauthorization Act, the agency must
negotiate compensation with each of these unions. According to a September
2002 study conducted by Deloitte and Touche, a major obstacle for FAA
management has been the complexity of dealing with so many bargaining units
and the ability of the unions, under the legislation, to negotiate compensation and
other elements of reform that would not normally be negotiable in the Federal
service.

As of March 2003, FAA remains in negotiations with seven unions. According to
FAA, negotiations are complete for all issues except compensation. As a result,

3
    FAA planned to expand the number of Controller-In-Charge positions and have them assume additional supervisory
     duties, in order to reduce the number of first line supervisors.


                                                         15
FAA has multiple compensation systems with about 23 percent of its workforce
still under the Federal General Schedule.

Although linking pay and performance is a key tenet of personnel reform, as a
result of the way these multiple pay systems were negotiated and implemented,
only about 36 percent of all FAA employees receive pay increases based on
performance. For example,

• The agreement between PASS and Airways Facilities includes pay for
  performance that links part of an employee’s pay increase to meeting certain
  performance goals, which was a result of the collective bargaining process.
  These goals include performing additional duties beyond their normal
  workload, providing customer service to both internal and external parties, and
  seeking innovative ways to improve the agency. Employees who meet these
  goals are provided an additional pay increase at the beginning of each calendar
  year.

The remainder of FAA employees receives largely automatic pay increases,
similar to the increases under the Federal General Schedule. For example,

• This year under terms of the NATCA collective bargaining agreement, all
  controllers received an automatic pay increase of 4.9 percent, regardless of
  their individual performance. FAA provided a similar increase to all Air
  Traffic field managers and supervisors.

Side Bar Agreements. We also found, that outside the national collective
bargaining agreement with NATCA, FAA and the union have entered into
hundreds of side bar agreements or MOUs. These agreements can cover a wide
range of issues such as implementing new technology, changes in working
conditions and, as a result of personnel reform bonuses and awards, all of which
are in addition to base pay. Many MOUs serve very legitimate purposes, such as
incentives for improving work performance. For example,

• We found one regional MOU, the Phraseology Improvement Incentive Plan,
  provided a means to reward exceptional efforts to improve controllers’ use of
  standard air traffic control phraseology.

However, we reviewed a number of MOUs that had substantial cost implications.
For example,

• As part of the controller pay system, FAA and NATCA entered into a national
  MOU providing controllers with an additional cost of living adjustment. As a
  result, at 111 locations, controllers receive between 1 and 10 percent in

                                       16
   “Controller Incentive Pay,” which is in addition to Government-wide locality
   pay. In FY 2002, the total cost for this additional pay was about $27 million.

• One MOU we reviewed allows controllers transferring to larger consolidated
  facilities to begin earning the higher salaries associated with their new
  positions substantially in advance of their transfer or taking on new duties. At
  one location, controllers received their full salary increases 1 year in advance
  of their transfer (in some cases going from an annual salary of around $54,000
  to over $99,000). During that time, they remained in their old location,
  controlling the same air space, and performing the same duties.

We found that FAA’s controls over MOUs are inadequate. For example, there is:
  - no standard guidance for negotiating, implementing, or signing MOUs;
  - broad authority among managers to negotiate MOUs and commit the
      agency;
  - no requirement for including labor relations specialists in negotiations; and
  - no requirement for estimating potential cost impacts prior to signing the
      agreement.

In addition, FAA has no system for tracking MOUs, but estimates there may be
between 1,000 and 1,500 MOUs agency-wide. It is important for FAA to get a
handle on this process because many MOUs involve issues pertaining to deploying
new equipment. For example,

• One MOU for a new free flight tool controller software system (URET) gave
  each controller an incentive of $500 cash award and a 24 hour time off award
  for meeting certain training milestones on the new system during initial
  deployment.      At 6 facilities alone, this resulted in FAA incurring
  approximately $1.3 million in individual cash awards and 62,500 hours in time
  off. FAA and NATCA are now negotiating for further implementation at the
  next 14 locations.

• At Philadelphia, there was a verbal agreement that gave each employee
  $1,000 in cash and 3 days off in connection with deployment of the new
  STARS system. Currently, STARS is scheduled to be deployed to more than
  170 terminal facilities, and it is unclear if FAA will enter into similar
  agreements at other locations.

We briefed Administrator Blakey on our concerns regarding MOUs; FAA is now
in the process of identifying those MOUs that are problematic or costly and has




                                       17
begun correspondence with NATCA to reopen several agreements.4 FAA is also
drafting new procedures for MOUs, which includes limiting approval authority
and requiring that both the Human Resources and Budget divisions review
proposed MOUs before they are signed by management. These are clearly steps in
the right direction.

Future Cost Drivers. A significant issue that could drive future costs is the
pending wave of controller retirements. In May 2001, FAA estimated a total of
about 7,200 controllers could leave the agency by the end of FY 2010. In general,
the training process to become a certified professional controller can take up to
5 years. As shown in the following chart, an important issue will be determining
the percentage of controllers that will actually retire when they become eligible,
and when and where new controllers will be needed. For FY 2004, FAA has
proposed adding 300 new controller positions in anticipation of expected
retirements.


                                  Air Traffic Controller Years of Service
                                        As of September 30, 2002*
      800                                                             771                                    732
      700                                                                                                                      658
                                                  588                                               574
      600                                                                              534                               555
                                                                523                                                533
                                      482                                   470
      500     424         428                                                                          461                     461
                                                                               447            420
                                                                                                      432
      400                                                                        330
                                                                                             311
      300
      200                                 127                         218                                          279
                             94                           144
      100           52                                  106
                    90          66
        0                                   38

              FY03        FY04        FY05        FY06          FY07        FY08       FY09         FY10     FY11        FY12
              Age 50 with 20 Years                                             Any Age with 25 Years
              Age 56 (mandatory retirement age)

*Controllers are subject to special retirement provisions that allow them to retire at age 50 with 20 years of service controlling live air
traffic (good time) or at any age with 25 years of good time. In addition, most air traffic controllers are subject to mandatory
separation from controlling live air traffic at age 56 but may work at other FAA positions.


A key issue for FAA will be to accomplish this task without “crowding out” other
critical functions. For example, FAA will need operating funds to train
maintenance technicians on new software to remain abreast of emerging
technologies and new systems. FAA will also need operating funds to hire and
train safety inspectors to oversee a rapidly changing airline industry. To meet
current financial challenges, airlines are reducing and standardizing aircraft fleets

4
    FAA is not requesting to reopen the MOU on controller incentive pay because FAA believes that CIP is a major,
     integral component of the 1998 collective bargaining agreement


                                                                      18
and closing or relocating maintenance facilities. FAA will need to ensure it has
ample inspectors, with the right skills, in the right locations, to monitor these
changes and ensure that safety is maintained.

Improving Management of Major Acquisitions.

FAA is requesting $2.9 billion for its Facilities and Equipment account for FY
2004. FAA has made progress with some acquisitions, such as Free Flight Phase 1
which embraced a “build a little, test a little” approach. However, cost overruns
and schedule slips with major acquisitions are all too common. We see three areas
that need attention; controlling cost growth and schedule slips, effectively
managing and controlling costs with modernization projects that are just getting
started, and putting in place the basic elements of contract oversight.

FAA is now beginning to take steps at the direction of the Administrator and
Deputy Administrator to strengthen contract oversight. In addition, FAA—like
any business—must develop metrics to assess progress with major acquisitions.

In 1996, Congress exempted FAA from Federal procurement rules that the agency
said hindered its ability to modernize the air traffic control system. Now, after
nearly 7 years, FAA has made progress in reducing the time it takes to award
contracts, but acquisition reform has had little measurable impact on bottom line
results--bringing large-scale projects in on time and within budget. The following
chart provides cost and schedule information on 5 of 20 projects we track that
have been managed since FAA was granted acquisition reform.

                         Estimated                 Percent
                      Program Costs                 Cost          Implementation Schedule
     Program        (Dollars in Millions)          Growth
                   Original     Current                           Original            Current
   WAAS             $892.4        $2,922.4*        227 % 1998-2001 2003-TBD**

   STARS            $940.2        $1,690.2**          80 % 1998-2005 2002-TBD**

   ASR-11           $752.9           $916.2           22 % 2000-2005 2003-2008

   WARP             $126.4           $152.7           21 % 1999-2000 2002-2003

   OASIS            $174.7           $251.0           44 % 1998-2001 2002-2005
        *This includes the cost to acquire geostationary satellites and costs are under review.
                              **Costs and schedules are under review.




                                                 19
These five acquisitions have experienced cost growth of over $3 billion—the
equivalent to an entire year’s budget for the modernization account (facilities and
equipment). These five acquisitions have also experienced and schedule slips of 3
to 5 years.

Problems with cost growth, schedule slips, and performance shortfalls have
serious consequences--they result in costly interim systems, a reduction in units
procured, postponed benefits (in terms of safety and efficiency), or “crowding out”
other projects. FAA is not getting as much as it can for each acquisition dollar.

For example, STARS, which commenced operations at Philadelphia this past year,
has cost FAA more than $1 billion since 1996. Most of these funds were spent on
developing STARS, not delivering systems. When the STARS development
schedule began slipping, FAA procured an interim system, the Common
Automated Radar Terminal System (Common ARTS) for about $200 million.
FAA is now operating Common ARTS (software and processors) at approximately
140 locations.

In FY 2002 alone, FAA reprogrammed over $40 million from other modernization
efforts (data link communications, oceanic modernization, and instrument landing
systems) to pay for cost increases with STARS. As a result of these cost and
schedule problems, in March 2002, FAA officials proposed scaling back the
program from 182 systems for $1.69 billion to a revised estimate of 73 systems for
$1.33 billion. No final decision has been made, and FAA is currently reevaluating
how many STARS systems it can afford.

FAA can no longer afford multibillion dollar cost growth with its major
acquisitions. It should be recognized that only 60 percent of FAA's FY 2004
request for Facilities and Equipment is expected to be spent specifically on new air
traffic control systems, whereas the remaining funds are requested for FAA
facilities, mission support (i.e., support contracts), and personnel expenses.




                                        20
                            FAA's FY 2004 Budget Submission
                               (Facilitie s and Equipme nt)


                       Pers onnel &
                         Related                      ATC Sys tem s
                                                          60%
                        Expens es
                           15%


                 Miss ion
                 Support
                  11%




                  Facilities
                    14%




Moreover, FAA’s projected budget for Facilities and Equipment as outlined in the
Administration’s reauthorization proposal is expected to increase, on average, by
only 1 percent annually over the next 4 years. In comparison, over the past
4 years, FAA’s Facilities and Equipment budget increased, on average, by about
9 percent annually.

Rebaselining Major Acquisitions. There are large-scale acquisitions, both old and
new, whose cost or schedule baselines need to be revised because the programs
have changed considerably or benefits have shifted. For example, the Integrated
Terminal Weather System (ITWS) provides air traffic managers with enhanced
weather information. FAA planned to complete deployment of the new weather
system in 2004 at a cost of $286 million. However, unit production costs have
skyrocketed from $360,000 to over $1 million; FAA cannot execute the program
as scheduled and may extend the deployment by 4 years.

In addition, FAA intended to have the Local Area Augmentation System
(Category I)—a new precision approach and landing system—in operation in
2004. It is now clear that this milestone cannot be met because of additional
development work, evolving requirements, and unresolved issues regarding how
the system will be certified as safe for pilots to use. Moreover, the more
demanding Category II/III services (planned for 2005) are now a research and
development effort with an uncertain end state. This means that benefits
associated with the new precision approach and landing system will be postponed.

Projects Early in the Acquisition Phase That Need Attention. A key focus for
FAA must be effective cost controls on programs that are just getting started but
have potential for cost growth. For example, the En Route Automation


                                           21
Modernization program (ERAM), with an estimated cost of $1.9 billion, is critical
because it will replace aging Host computer hardware and software (the central
nervous system) for facilities that manage high altitude air traffic. In December
2002, FAA awarded a contract for the development and implementation of
ERAM. Given FAA’s past record, this is a high-risk effort because of its size and
complexity, and the fact that it involves over 1 million lines of software code. We
intend to initiate a review of ERAM later this year.

Another acquisition that warrants attention is the Advanced Technologies and
Oceanic Procedures (ATOP) program which will modernize equipment at
facilities that manage air traffic principally over the Atlantic and Pacific Oceans.
Since 1995, FAA has spent over $300 million to modernize its oceanic facilities
but past efforts met with little success due to, among other things, funding
limitations and poor contractor performance.

In June 2001, FAA awarded a $217 million fixed price contract to provide oceanic
systems in Anchorage, New York, and Oakland. The contractor planned to
provide the first operational system to Oakland in April 2003. However, since the
contract was awarded, the contractor has experienced delays primarily due to
problems completing software development and testing. FAA and the contractor
planned to extensively rely on non-developmental software but additional software
development was needed to meet agency requirements. The contractor is currently
up to 9 months behind schedule and FAA is reassessing when the first site will be
operational in Oakland. To date, schedule delays have not resulted in significant
cost growth because this is a fixed price contract. To control costs with this
acquisition, FAA needs to keep requirements stable.

Setting Priorities and Linking Modernization and Capacity Initiatives. FAA
needs to set priorities with its modernization initiatives and link the Operational
Evolution Plan (OEP)—the agency’s blueprint for enhancing capacity—with the
agency’s budget. FAA needs to address uncertainties of how quickly airspace
users will equip with new technologies in the Plan (estimated at $11 billion). It is
a good time to rethink what reasonably can be accomplished over the next 3-5
years and what is affordable (from both FAA and industry perspectives) given the
decline in Trust Fund revenue and the financial condition of the airlines.

We recognize that FAA is retooling the OEP. FAA and industry officials told us
that considerable benefits may be obtained through airspace changes, new
procedures, and taking advantage of system currently onboard aircraft—all of
which do not require major investments by airlines. According to senior FAA
officials, hard decisions about funding OEP initiatives and related major
acquisitions will need to be made. This is because some large-scale, billion-dollar
acquisitions are not in the Plan but are critical for its success. For example,


                                        22
ERAM is not an OEP initiative but needs to be fully integrated with the Plan and
considered when setting priorities.

Strengthening Contract Oversight. Our work has also found that FAA has not
followed sound business practices for administering contracts. We have
consistently found a lack of basic contract administration at every stage of contract
management from contract award to contract closeout. For example, we found
that Government cost estimates were:
    − prepared by FAA engineers, then ignored;
    − prepared using unreliable resource and cost data;
    − prepared by the contractor (a direct conflict of interest); or
    − not prepared at all.

For example, in our report on the Technical Support Services Contract (with a
potential cost of $875 million), we found that FAA did not control costs by
developing reliable cost estimates for proposed projects. We found that in the
majority of cases, FAA used the contractor’s project cost estimate to set the
project’s budget. We also found that FAA did not evaluate contractor work
performance, and nearly 10 percent of the contract personnel reviewed did not
meet contract standards for education and experience.

In our May 2002 report on the oversight of cost-reimbursable contracts, we found
cost-reimbursable contracts totaling about $2 billion did not have required
incurred cost audits. To protect the Government interests, FAA needs to hold
managers accountable and adhere to the basic principles of contract oversight and
administration.

Moreover, we found that contract oversight of the National Airspace System
Implementation Contract (NISC) was seriously inadequate. We concluded that of
the 46 active task orders having obligated funds totaling $97 million,
approximately $10 million (10 percent) were in excess of the required amount to
fully fund the task order deliverables. As a result, FAA reprogrammed $5 million
from NISC to meet other agency priorities, and re-baselined NISC task orders to
make better use of the remaining funds. FAA has stated that it will take actions to
address these concerns–the key now is follow through.

In addition to strengthening contract oversight, make greater use of Defense
Contract Audit Agency audits and institute cost control mechanisms for software-
intensive contracts. FAA needs to obtain from the Defense Contract Audit
Agency for contract costs billed by private companies for research and
development, production, and all costs related to system development. FAA
should use these audits to ensure that the amounts billed are reasonable and that
the Government’s interest is properly protected. By ensuring that only acceptable

                                         23
costs are paid to contractors, FAA will be able to stretch its procurement dollars
further.

Tracking Costs

An effective cost accounting system is fundamental to measuring the cost of FAA
activities and provides the basis for setting benchmarks and measuring
performance. Without a reliable cost accounting system, FAA cannot credibly
claim to be, nor function as, a performance-based organization. It represents the
underpinning for FAA’s operation as a performance-based organization through
the development of good cost information for effective decision-making.

At the direction of Congress, FAA began developing its cost accounting system in
1996, which was estimated at that time to cost about $12 million and be completed
in October 1998. Now, after nearly 7 years of development and spending over
$38 million, FAA still does not have an adequate cost accounting system, and
expects to spend at least another $7 million to deploy the cost accounting system
throughout FAA.

Although FAA’s cost accounting system is producing cost data for two of its lines
of business, representing 80 percent of the agency, it still does not report costs for
each facility location. For example, for the Terminal Service in FY 2001, about
$1.3 billion of $2.4 billion was reported in lump-sum totals and not by individual
facility locations.

FAA also needs an accurate labor distribution system to track the costs and
productivity of its workforces. Cru-X is the labor distribution system FAA chose
to track hours worked by air traffic employees. As designed, Cru-X could have
provided credible workforce data for addressing controller concerns about staffing
shortages, related overtime expenditures, and determining how many controllers
are needed and where. That information in turn is especially important given
projections of pending controller retirements. Unfortunately, Cru-X has not been
implemented as designed. We hope it will be in the coming year.

That concludes my statement, Mr. Chairman. I would be pleased to address any
questions you or other members of the Subcommittee might have.




                                         24
The following tables are screen reader friendly versions of the tables found on pages 3 and 18 of
this document. This page was not included with the original document, and may be discarded if
the reader wishes to retain an exact copy of the original document.



              FAA’s Operations Budget – FY 1996 to FY 2007 (Proposed)


           FAA’s Operations Budget                    Actual                           Proposed
           FY 1996                                    $4.6 billion                     N/A
           FY 1997                                    $5.0 billion                     N/A
           FY 1998                                    $5.3 billion                     N/A
           FY 1999                                    $5.6 billion                     N/A
           FY 2000                                    $6.0 billion                     N/A
           FY 2001                                    $6.6 billion                     N/A
           FY 2002                                    $6.9 billion                     N/A
           FY 2003                                    $7.1 billion                     N/A
           FY 2004                                    N/A                              $7.6 billion
           FY 2005                                    N/A                              $7.7 billion
           FY 2006                                    N/A                              $7.9 billion
           FY 2007                                    N/A                              $8.1 billion

Page 3



                    Air Traffic Controller Years of Service As of September 30, 2002*

Air Traffic Controllers            Age 50, 20 Years               Any Age, 25 Years            Age 56 (Mandatory Retirement Age
       FY 2003                             424                           90                                   52
       FY 2004                             428                           66                                   94
       FY 2005                             482                           38                                  127
       FY 2006                             588                          144                                  106
       FY 2007                             523                          771                                  218
       FY 2008                             470                          447                                  330
       FY 2009                             534                          311                                  420
       FY 2010                             574                          432                                  461
       FY 2011                             732                          279                                  533
       FY 2012                             555                          461                                  658
*Controllers are subject to special retirement provisions that allow them to retire at age 50 with 20 years of service
controlling live air traffic (good time) or at any age with 25 years of good time. In addition, most air traffic controllers
are subject to mandatory separation from controlling live air traffic at age 56 but may work at other FAA positions.

Page 18
